No. 20-890

 

IN THE

Supreme Court of the United States

STANFORD VINA RANCH IRRIGATION COMPANY,
Petitioner,

Vv.

STATE OF CALIFORNIA, STATE WATER RESOURCES
CONTROL BOARD, STATE WATER RESOURCES CONTROL
BOARD MEMBERS FELICIA MARCUS, DOREEN D’ADAMO,
FRANCES SPIVY-WEBER, STEVEN MOORE, AND
TAM DODUC; AND DOES 1 THROUGH 20,

Respondents.

On Petition for a Writ of Certiorari to the
Court of Appeal of the State of California,
Third Appellate District

BRIEF OF NORTHERN CALIFORNIA
WATER ASSOCIATION AS AMICUS CURIAE
IN SUPPORT OF PETITIONER

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
4,965 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on January 21, 2021.

Colin Casey i.

Wilson-Epes Printing Co., Inc.
